AO 245B (Rev. )

Judgment in a Criminal Case
Sheet 1

UNITED STATES DISTRICT COURT
Middle District
__________
DistrictofofTennessee
__________
)
UNITED STATES OF AMERICA
JUDGMENT IN A CRIMINAL CASE
)
v.
)
)
Gerson Serrano-Ramirez
Case Number: 3:17CR00164-001
)
)
USM Number: 25366-075
)
Manuel B. Russ and William Justin Conway
)
Defendant’s
Attorney
)

THE DEFENDANT:

G pleaded guilty to count(s)
G pleaded nolo contendere to count(s)
which was accepted by the court.

✔ was found guilty on count(s)
G

Counts One through Nine of the Superseding Indictment

after a plea of not guilty.
The defendant is adjudicated guilty of these offenses:
Title & Section

Nature of Offense

Offense Ended

Count

18 U.S.C. § 922(g)(5)

Illegal Alien in Possession of a Firearm

8/8/2017

1

8 U.S.C. § 1326(a)

Illegal Reentry

8/8/2017

2

8

The defendant is sentenced as provided in pages 2 through
the Sentencing Reform Act of 1984.

of this judgment. The sentence is imposed pursuant to

G The defendant has been found not guilty on count(s)
G Count(s)

G is

G are dismissed on the motion of the United States.

It is ordered that the defendant must notify the United States attorney for this district within 30 days of any change of name, residence,
or mailing address until all fines, restitution, costs, and special assessments imposed by this judgment are fully paid. If ordered to pay restitution,
the defendant must notify the court and United States attorney of material changes in economic circumstances.

5/16/2019
Date of Imposition of Judgment

Signature of Judge

Waverly D. Crenshaw, Jr., Chief U.S. District Judge
Name and Title of Judge

5/20/2019
Date

Case 3:17-cr-00164 Document 180 Filed 05/20/19 Page 1 of 8 PageID #: 928

AO 245B (Rev. )

Judgment in a Criminal Case
Sheet 1A
Judgment—Page

2

of

DEFENDANT: Gerson Serrano-Ramirez
CASE NUMBER: 3:17CR00164-001

ADDITIONAL COUNTS OF CONVICTION
Title & Section

Nature of Offense

Offense Ended

18 U.S.C. § 1512(a)(2)

Tampering with a Witness

21 U.S.C. § 841(a)(1)

Possession with Intent to Distribute and Distribution of
Cocaine

18 U.S.C. § 924(c)

Count

7/25/2017

3

7/25/2017

4

7/25/2017

5

8/7/2017

6

8/7/2017

7

8/8/2017

8

8/8/2017

9

Use, Carry, and Brandish a Firearm During or in
Relation to a Crime of Violence and Drug Trafficking
Offense

21 U.S.C. § 841(a)(1)

Possession with Intent to Distribute and Distribution of
Cocaine

18 U.S.C. § 924(c)

Use, Carry, and Brandish a Firearm During or in
Relation to a Crime of Violence and Drug Trafficking
Offense

21 U.S.C. § 856(a)(1)

Maintaining a Premises to Manufacture and Distribute
Controlled Substances

18 U.S.C. § 924(c)

Use, Carry, and Brandish a Firearm During or in
Relation to a Crime of Violence and Drug Trafficking
Offense

Case 3:17-cr-00164 Document 180 Filed 05/20/19 Page 2 of 8 PageID #: 929

8

AO 245B (Rev. ) Judgment in Criminal Case
Sheet 2 — Imprisonment
Judgment — Page

3

of

DEFENDANT: Gerson Serrano-Ramirez
CASE NUMBER: 3:17CR00164-001

IMPRISONMENT
The defendant is hereby committed to the custody of the Federal Bureau of Prisons to be imprisoned for a total
term of:

Total effective sentence of 228 months, as follows: 24 months on Counts 1, 2, 3, 6, and 8, all concurrent; followed by 84
months on Count 5, consecutive; followed by 60 months on Count 7, consecutive; followed by 60 months on Count 9,
consecutive
✔ The court makes the following recommendations to the Bureau of Prisons:
G
drug treatment programs; anti-gang programs

✔ The defendant is remanded to the custody of the United States Marshal.
G

G The defendant shall surrender to the United States Marshal for this district:
G at

G a.m.

G p.m.

on

.

G as notified by the United States Marshal.
G The defendant shall surrender for service of sentence at the institution designated by the Bureau of Prisons:
G before 2 p.m. on

.

G as notified by the United States Marshal.
G as notified by the Probation or Pretrial Services Office.

RETURN
I have executed this judgment as follows:

Defendant delivered on
aW

to
, with a certified copy of this judgment.

UNITED STATES MARSHAL

By
DEPUTY UNITED STATES MARSHAL

Case 3:17-cr-00164 Document 180 Filed 05/20/19 Page 3 of 8 PageID #: 930

8

AO 245B (Rev. ) Judgment in a Criminal Case
Sheet 3 — Supervised Release
Judgment—Page

4

of

8

DEFENDANT: Gerson Serrano-Ramirez
CASE NUMBER: 3:17CR00164-001

SUPERVISED RELEASE
Upon release from imprisonment, you will be on supervised release for a term of :

3 years on Counts 1, 3, 4, 5, 6, 7, 8, and 9
1 year on Count 2;
all concurrent

MANDATORY CONDITIONS
1.
.
.

You must not commit another federal, state or local crime.
You must not unlawfully possess a controlled substance.
You must refrain from any unlawful use of a controlled substance. You must submit to one drug test within 15 days of release from
imprisonment and at least two periodic drug tests thereafter, as determined by the court.
G The above drug testing condition is suspended, based on the court's determination that you
SRVHDORZULVNRIIXWXUHVXEVWDQFHDEXVH FKHFNLIDSSOLFDEOH



G <RXPXVWPDNHUHVWLWXWLRQLQDFFRUGDQFHZLWK86&DQG$RUDQ\RWKHUVWDWXWHDXWKRUL]LQJDVHQWHQFHRI

.

✔ You must cooperate in the collection of DNA as directed by the probation officer. (check if applicable)
G
G You must comply with the requirements of the Sex Offender Registration and Notification Act ( U.S.C. § , et seq.) as

.

.

UHVWLWXWLRQ FKHFNLIDSSOLFDEOH

G

directed by the probation officer, the Bureau of Prisons, or any state sex offender registration agency in WKHORFDWLRQwhHUH you
reside, work,are a student, or were convicted of a qualifying offense. (check if applicable)
You must participate in an approved program for domestic violence. (check if applicable)

You must comply with the standard conditions that have been adopted by this court as well as with any other conditions on the attached
page.

Case 3:17-cr-00164 Document 180 Filed 05/20/19 Page 4 of 8 PageID #: 931

AO 245B (Rev. ) Judgment in a Criminal Case
Sheet 3A — Supervised Release
Judgment—Page

5

of

8

DEFENDANT: Gerson Serrano-Ramirez
CASE NUMBER: 3:17CR00164-001

STANDARD CONDITIONS OF SUPERVISION
As part of your supervised release, you must comply with the following standard conditions of supervision. These conditions are imposed
because they establish the basic expectations for your behavior while on supervision and identify the minimum tools needed by probation
officers to keep informed, report to the court about, and bring about improvements in your conduct and condition.
1.
2.
3.
4.
5.

6.
7.

8.
9.
10.
11.
12.
13.

You must report to the probation office in the federal judicial district where you are authorized to reside within 72 hours of your
release from imprisonment, unless the probation officer instructs you to report to a different probation office or within a different time
frame.
After initially reporting to the probation office, you will receive instructions from the court or the probation officer about how and
when you must report to the probation officer, and you must report to the probation officer as instructed.
You must not knowingly leave the federal judicial district where you are authorized to reside without first getting permission from the
court or the probation officer.
You must answer truthfully the questions asked by your probation officer.
You must live at a place approved by the probation officer. If you plan to change where you live or anything about your living
arrangements (such as the people you live with), you must notify the probation officer at least 10 days before the change. If notifying
the probation officer in advance is not possible due to unanticipated circumstances, you must notify the probation officer within 72
hours of becoming aware of a change or expected change.
You must allow the probation officer to visit you at any time at your home or elsewhere, and you must permit the probation officer to
take any items prohibited by the conditions of your supervision that he or she observes in plain view.
You must work full time (at least 30 hours per week) at a lawful type of employment, unless the probation officer excuses you from
doing so. If you do not have full-time employment you must try to find full-time employment, unless the probation officer excuses
you from doing so. If you plan to change where you work or anything about your work (such as your position or your job
responsibilities), you must notify the probation officer at least 10 days before the change. If notifying the probation officer at least 10
days in advance is not possible due to unanticipated circumstances, you must notify the probation officer within 72 hours of
becoming aware of a change or expected change.
You must not communicate or interact with someone you know is engaged in criminal activity. If you know someone has been
convicted of a felony, you must not knowingly communicate or interact with that person without first getting the permission of the
probation officer.
If you are arrested or questioned by a law enforcement officer, you must notify the probation officer within 72 hours.
You must not own, possess, or have access to a firearm, ammunition, destructive device, or dangerous weapon (i.e., anything that was
designed, or was modified for, the specific purpose of causing bodily injury or death to another person such as nunchakus or tasers).
You must not act or make any agreement with a law enforcement agency to act as a confidential human source or informant without
first getting the permission of the court.
If the probation officer determines that you pose a risk to another person (including an organization), the probation officer may
require you to notify the person about the risk and you must comply with that instruction. The probation officer may contact the
person and confirm that you have notified the person about the risk.
You must follow the instructions of the probation officer related to the conditions of supervision.

U.S. Probation Office Use Only
A U.S. probation officer has instructed me on the conditions specified by the court and has provided me with a written copy of this
judgment containing these conditions. For further information regarding these conditions, see Overview of Probation and Supervised
Release Conditions, available at: www.uscourts.gov.
Defendant's Signature

Date

Case 3:17-cr-00164 Document 180 Filed 05/20/19 Page 5 of 8 PageID #: 932

AO 245B(Rev. ) Judgment in a Criminal Case
Sheet 3D — Supervised Release
Judgment—Page

6

of

8

DEFENDANT: Gerson Serrano-Ramirez
CASE NUMBER: 3:17CR00164-001

SPECIAL CONDITIONS OF SUPERVISION
1. The defendant shall participate in a program of drug testing and substance abuse treatment which may include a 30-day
inpatient treatment program followed by up to 90 days in a community correction center at the direction of the United
States Probation Office. The defendant shall pay all or part of the cost for substance abuse treatment if the United States
Probation Office determines the defendant has the financial ability to do so or has appropriate insurance coverage to pay
for such treatment.
2. The defendant shall furnish all financial records, including, without limitation, earnings records and tax returns, to the
United States Probation Office upon request.
3. If deported, the defendant shall not reenter the United States without express permission of the Secretary of the
Department of Homeland Security. Within 24 hours of returning to the United States, the defendant shall report in person
to the nearest United States Probation Office.
4. The defendant shall not be involved with gang activity, possess any gang paraphernalia or associate with any person
affiliated with a gang.
5. The defendant shall not contact Xavier Alvarez either in person, or by telephone, mail, or a third party; and the United
States Probation Office will verify compliance.

Case 3:17-cr-00164 Document 180 Filed 05/20/19 Page 6 of 8 PageID #: 933

AO 245B (Rev. )

Judgment in a Criminal Case
Sheet 5 — Criminal Monetary Penalties
Judgment — Page

7

of

8

DEFENDANT: Gerson Serrano-Ramirez
CASE NUMBER: 3:17CR00164-001

CRIMINAL MONETARY PENALTIES
The defendant must pay the total criminal monetary penalties under the schedule of payments on Sheet 6.
JVTA Assessment*

Assessment

$ 900.00

TOTALS

Fine

$

Restitution

$

G The determination of restitution is deferred until

$

. An Amended Judgment in a Criminal Case (AO 245C) will be entered

after such determination.

G The defendant must make restitution (including community restitution) to the following payees in the amount listed below.
If the defendant makes a partial payment, each payee shall receive an approximately proportioned payment, unless specified otherwise in
the priority order or percentage payment column below. However, pursuant to 18 U.S.C. § 3664(i), all nonfederal victims must be paid
before the United States is paid.
Total Loss**

Name of Payee

TOTALS

0.00

$

$

Restitution Ordered

Priority or Percentage

0.00

G

Restitution amount ordered pursuant to plea agreement $

G

The defendant must pay interest on restitution and a fine of more than $2,500, unless the restitution or fine is paid in full before the
fifteenth day after the date of the judgment, pursuant to 18 U.S.C. § 3612(f). All of the payment options on Sheet 6 may be subject
to penalties for delinquency and default, pursuant to 18 U.S.C. § 3612(g).

G

The court determined that the defendant does not have the ability to pay interest and it is ordered that:

G the interest requirement is waived for the
G the interest requirement for the

G fine

G fine
G

G restitution.

restitution is modified as follows:

* Justice for Victims of Trafficking Act of 2015, Pub. L. No. 114-22.
** Findings for the total amount of losses are required under Chapters 109A, 110, 110A, and 113A of Title 18 for offenses committed on or
after September 13, 1994, but before April 23, 1996.

Case 3:17-cr-00164 Document 180 Filed 05/20/19 Page 7 of 8 PageID #: 934

$2% 5HY -XGJPHQWLQD&ULPLQDO&DVH
Sheet 6 — Schedule of Payments
Judgment — Page

8

of

8

DEFENDANT: Gerson Serrano-Ramirez
CASE NUMBER: 3:17CR00164-001

SCHEDULE OF PAYMENTS
Having assessed the defendant’s ability to pay, payment of the total criminal monetary penalties is due as follows:
A

G Lump sum payment of $
G
G

not later than
in accordance with

due immediately, balance due

G

C,

G

D,

G

, or
E, or

B

✔ Payment to begin immediately (may be combined with
G

C

G Payment in equal

D

G Payment in equal

G F below; or
G C,

G D, or

G F below); or

(e.g., weekly, monthly, quarterly) installments of $
over a period of
(e.g., months or years), to commence
(e.g., 30 or 60 days) after the date of this judgment; or
(e.g., weekly, monthly, quarterly) installments of $
over a period of
(e.g., months or years), to commence
(e.g., 30 or 60 days) after release from imprisonment to a

term of supervision; or
E

G Payment during the term of supervised release will commence within

F

G Special instructions regarding the payment of criminal monetary penalties:

(e.g., 30 or 60 days) after release from
imprisonment. The court will set the payment plan based on an assessment of the defendant’s ability to pay at that time; or

Unless the court has expressly ordered otherwise, if this judgment imposes imprisonment, payment of criminal monetary penalties is due during
the period of imprisonment. All criminal monetary penalties, except those payments made through the Federal Bureau of Prisons’ Inmate
Financial Responsibility Program, are made to the clerk of the court.
The defendant shall receive credit for all payments previously made toward any criminal monetary penalties imposed.

G Joint and Several
Defendant and Co-Defendant Names and Case Numbers (including defendant number), Total Amount, Joint and Several Amount,
and corresponding payee, if appropriate.

G The defendant shall pay the cost of prosecution.
G The defendant shall pay the following court cost(s):
G The defendant shall forfeit the defendant’s interest in the following property to the United States:

Payments shall be applied in the following order: (1) assessment, (2) restitution principal, (3) restitution interest, (4) fine principal, (5) fine
interest, (6) community restitution, (7) JVTA assessment, (8) penalties, and (9) costs, including cost of prosecution and court costs.

Case 3:17-cr-00164 Document 180 Filed 05/20/19 Page 8 of 8 PageID #: 935

